No.
IN THE
SUPREME COURT OF THE UNITED STATES

Arthur O. Armstrong,
Petitioner
v.
NIRTH CAROLINA, et al
Respondents.
PROOF OF SERVICE
Arthur O. Armstrong

do swear that on this date, March 22. 2021, as

required by the Supreme Court Rule 29.1, has served the petition for a writ of certiorari on each
party in the above proceeding, or that party's counsel and every other person required to be
served by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third party commercial carrier for delivery within 3 calendar days: Office of the Attorney
General of North Carolina. Department of Justice. P. O. Box 629 Raleigh. NC 27602 9
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 22,2021.

